NRC: OIG/97A-14 - Survey of NRC/EPA Issues Regarding Radiation Standards
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1998 > OIG/97A-14
OIG/97A-14 - Survey of NRC/EPA Issues Regarding Radiation Standards
December 18, 1997
MEMORANDUM TO:
Chairman Jackson
FROM:
Hubert T. Bell
Inspector General
SUBJECT:
SURVEY OF NRC/EPA ISSUES REGARDING RADIATION STANDARDS
As you know, for several years the Nuclear Regulatory Commission (NRC) and the Environmental Protection Agency (EPA) have attempted to reach agreement on radiation standards for the decommissioning of NRC-licensed facilities.  In 1994, the General Accounting Office reported a lack of consistency and compatibility between NRC and EPA standards. Consequently, Congress directed the agencies to work together to bring finality to this issue by establishing consistent and uniform radiation protection standards.
NRC and EPA still differ on what constitutes an adequate level of public health and safety protection from residual radiation.  Therefore, the Office of the Inspector General reviewed the efforts by NRC and EPA in attempting to resolve their differences related to the development of consistent and compatible radiation standards, and to determine the impact of these continuing differences on NRC licensees.  The purpose of this letter is to advise you that we have completed our survey and to provide our conclusions based on the work performed.  Given the apparent impasse between the two agencies, we plan no additional work.
Although the two agencies have taken actions to establish consistent and compatible radiation standards for NRC license termination, this goal has not been achieved, despite the issuance of NRC's July 1997 rule.  The inability of NRC and EPA to agree on an acceptable level of radiation protection subjects NRC licensees to potential dual regulation, which, according to industry officials, could be cost burdensome and delay the initiation of the decommissioning process.
Under its authority contained in the Comprehensive Environmental Response, Compensation, and Liability Act of 1980 (CERCLA), EPA could subject NRC licensees to more stringent criteria than that contained in NRC's rule, should it decide to do so.   In this regard, EPA issued an August 1997 directive to its staff advising that NRC's criteria is not sufficiently protective under CERCLA and generally should not be used to establish cleanup levels.  NRC believes that the criteria contained in its rule sufficiently protects the public health and safety.  NRC and EPA officials agree that a relatively small number of sites will not initially clean up to CERCLA standards.  However,  NRC does not believe that any of these sites will contain contamination levels that would merit clean up under CERCLA  and, therefore, questions whether EPA will exercise its statutory authority.  EPA indicated that each case must be evaluated individually and placed particular emphasis on the groundwater radiation levels.
Following passage of the July rule, the Commission initiated additional efforts to achieve finality in NRC license termination decisions.  Principal among these efforts is a proposal to the Congress that a provision be included in the Superfund Cleanup Acceleration Act (Superfund reform bill).  This proposal would effectively result in an exclusion from EPA's CERCLA authority for NRC-regulated sites whose licenses are terminated in accordance with NRC's  rule.  This provision is included in a bill recently introduced in the House of Representatives, but is not currently included in any Senate version of the bill.  Therefore, it is uncertain whether the Superfund reform bill, if passed, will contain NRC's proposed provision.  However, EPA officials stated that EPA already has clear legal authority to set radiation standards and, therefore, questioned the need for any legislative change.
At this point, it seems clear that various avenues to resolve this issue have
been explored without success. We conclude that legislative action may therefore
be the most effective means to resolve the impasse between NRC and EPA which
will otherwise likely continue with its attendant effect on NRC licensees. Consequently,
we will be providing this report to the appropriate legislative committees.
cc:
Commissioner Dicus
Commissioner Diaz
Commissioner McGaffigan
C. Paperiello, NMSS
M. Knapp, RES
L. Callan, EDO
H. Thompson, EDO
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees